NO. 20-5

In the Supreme Court of the United States
SENATORS RICHARD BLUMENTHAL, RICHARD J. DURBIN, PATTY MURRAY, ELIZABETH
WARREN, AMY KLOBUCHAR, BERNARD SANDERS, PATRICK LEAHY, SHELDON
WHITEHOUSE, CHRISTOPHER A. COONS, MAZIE K. HIRONO, CORY A. BOOKER, KAMALA
D. HARRIS, MICHAEL F. BENNET, MARIA CANTWELL, BENJAMIN L. CARDIN, TOM
CARPER, CATHERINE CORTEZ MASTO, TAMMY DUCKWORTH, KIRSTEN E. GILLIBRAND,
MARTIN HEINRICH, TIM KAINE, EDWARD J. MARKEY, JEFF MERKLEY, CHRIS MURPHY,
JACK REED, BRIAN SCHATZ, TOM UDALL, CHRIS VAN HOLLEN, AND RON WYDEN,
Petitioners
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY
AS PRESIDENT OF THE UNITED STATES, Respondent
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF
HAROLD H. BRUFF, PETER M. SHANE, PETER L. STRAUSS, AND PAUL
R. VERKUIL AS AMICI CURIAE SUPPORTING PETITIONERS contains 4,814
words, respectively, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on August 10, 2020
Respectfully submitted,
/s/ Katharine M. Mapes
Katharine M. Mapes
Counsel of Record for Amici Curiae
Harold H. Bruff, Peter M. Shane, Peter
L. Strauss, and Paul R. Verkuil

